                       America the Beautiful


         FEDERAL LABOR RELATIONS AUTHORITY
                  OFFICE OF INSPECTOR GENERAL


                       39th SEMIANNUAL REPORT
                             TO THE CONGRESS




                             October 1, 2007
                                 through
                             March 31, 2008

Date Issued: April 8, 2008
                           EXECUTIVE SUMMARY
This is the 39th Semi-Annual report issued by the Office of the Inspector General (OIG)
at the Federal Labor Relations Authority (FLRA). This report, submitted pursuant to
section 5 of the Inspector General Act, summarizes the major activities and
accomplishments of the FLRA Inspector General for the period of October 1, 2007 to
March 31, 2008.

During this reporting period, the FLRA Inspector General closed and submitted the 2007
Financial Statement Report to the Chairman, FLRA on February 28, 2008. Although
again, this audit took an extensive time because necessary information was not
provided and the PAR was not issued by November, however, on April 4, 2008, the
FLRA responded to requirements much better than the previous three years.

The FLRA Inspector General processed 3 hotline calls completed 1 administrative
investigation and is still investigating a second administrative issue. The FLRA
Inspector General has also started an extensive review of FLRA’s administrative
programs during this reporting period. During this reporting period Senator Waxman
requested that Inspectors General provide his Congressional Committee detailed
information regarding the Agency’s lack of response to Inspector General finding and
recommendations from 2001 to 2007 and requested the Inspectors General response
by January 31, 2008 which was properly addressed by the FLRA Inspector General.
During this reporting period, the FLRA Inspector General was interviewed by several
investigators from GAO regarding Inspector General matters and created the GAO
Survey which has been sent to all Federal Inspectors General for information.

During this reporting period, the Inspector General provided Senior Management with
information regarding the Congressional request listed above and the Chairman, FLRA
provided a response to all Inspector General findings and recommendations from l998
to 2007. With the exception of the FLRA Executive’s response to a few previous
findings relating to the Office of General Counsel after the appointment of the General
Counsel who recently left the FLRA a General Counsel was appointed to the FLRA.
This was the only response to the extensive list of opened oversight findings and
recommendations for corrective actions from 1998 to 2007.

During this reporting period, FLRA management began to focus on trying to improve the
negative FLRA environment which has been causing many long term employees to
retire or find other Federal jobs over the last several years. Financial programs, Human
Resource programs and information technology programs have or are being contracted
to the Department of Interior National Business Center which will definitely improve
FLRA’s Federal Government administrative requirements as well as the environment.
FLRA Management recently hired a professional and experienced Chief Financial
Officer who is also acting as the Information Technology CIO to focus on improving
these deteriorated administrative programs.


                                39th Semi Annual Report
                                      Page 2 of 37
                 THE FEDERAL LABOR RELATIONS AUTHORITY

The FLRA is an independent agency responsible for directing the labor-management
relations for 1.9 million non-postal Federal employees worldwide, nearly 1.1 million of
who are exclusively represented in approximately 2,200 bargaining units. The FLRA is
charged by the Federal Service Labor-Management Relations (The Statute), section
7105, with providing leadership in establishing policies and guidance relating to Federal
sector labor-management relations, resolving disputes arising among Federal agencies
and unions representing Federal employees, and ensuring compliance with the Statute.

The FLRA represents the Federal government’s consolidated approach to labor-
management relations. The FLRA is “three components in one,” fulfilling legal statutory
responsibilities through the Authority, the Office of General Counsel and the Federal
Service Impasses Panel. The FLRA has 7 regional offices and one satellite office. The
FLRA also provides staff support to two other organizations – the Foreign Service
Impasses Disputes Panel and the Foreign Service Labor Relations Board.

The Authority is a quasi-judicial body with three full-time Members who are appointed
for 5-year terms by the President with the advice and consent of the Senate. One
Member is appointed by the President to serve as Chairman of the Authority and as
Chief Executive and Administrative Officer of the FLRA.

The Authority adjudicates disputes arising under the Statute, deciding cases concerning
the negotiability of collective bargaining agreement proposals, unfair labor practice
(ULP) allegations, representation petitions, and exceptions to grievance arbitration
awards. In addition, consistent with its statutory responsibility to provide leadership in
establishing policies and guidance, the Authority assists Federal agencies and unions in
understanding their rights and responsibilities under the Statute and resolving their
disputes through interest-based problem-solving rather than adjudication.

In addition to the three Member Offices, the Authority component of the FLRA also
houses the Office of Administrative Law Judges, the Office of Case Adjudication the
Office of the Solicitor, the Office of the Executive Director, and the Office of the
Inspector General.

Office of the Administrative Law Judges: The FLRA’s Administrative Law Judges
(ALJ’s) are appointed by the Authority to conduct due process hearings in accordance
with the Administrative Procedures Act and issue recommended decisions in cases
involving alleged unfair labor practices. ALJ’s also conduct hearings and issue
recommended decisions involving applications for attorney fees and files pursuant to
the Back Pay Act or the Equal Access to Justice Act. In the course of their duties, ALJ’s
conduct pre-hearing conferences, issue subpoenas, rule on motions and evidentiary
issues, and engage in settlement efforts. An ALJ decision may be affirmed, modified, or
reversed, in whole or in part, by the Authority. If no exceptions are filed to an ALJ
decision, the decision is adopted by the Authority and becomes final and binding upon
the parties.

                                 39th Semi Annual Report
                                       Page 3 of 37
Office of Policy, Project & Performance Management: The Office of Policy, Project
& Performance Management is responsible for agency-wide strategic policy and
planning, including the role of Chief Human Capital Officer. The office also provides
oversight with respect to FLRA performance management initiatives. The office drafts,
reviews, and approves all agency-wide instructions and policies; oversees the
Chairman’s and the Administration’s initiatives; and develops agency-wide initiatives,
which upon the Chairman’s final approval, are implemented through the Office of the
Executive Director. The office also houses the agency’s congressional affairs function
and serves as the Chairman’s primary point of contact with the Solicitor, Executive
Director, EEO Director, and Inspector General.

Office of Case Adjudication. The Office of Case Adjudication was created in March
2007 to realign the Authority’s case control staff and professional case writer staff to
maximize the achievements of the Authority Decisional Component. The 3 FLRA
Member Offices still exist and retain a core staff. This change was implemented to
enable the Authority Decisional Component to consistently meet their goals and
improve the ability of the Authority to assign, track and follow-up on Arbitration,
Negotiability, Unfair Labor Practice and Representation cases that are submitted to the
Authority Decisional Component for resolution and disposition.

Office of the Solicitor: The Office of the Solicitor represents the Authority in court
proceedings before all United States Courts, including the U.S. Supreme Court, U.S.
Courts of Appeals, and Federal District Courts. The office serves as the agency’s in-
house counsel, providing legal advice to all FLRA components. The Solicitor is also the
Designated Agency Ethics Officers under the Ethics in Government Act of 1978, as
amended.

Office of the Executive Director: The Office of the Executive Director provides
operational support to all components of the FLRA, including budget and finance,
human resources, procurement, administrative services, and information resources
management and is responsible for developing and implementing agency-wide
initiatives, such as strategic planning.

Office of the Inspector General: The Office of the Inspector General (OIG) is
responsible for directing and carrying out audits, investigations, evaluations,
inspections, surveys and other oversight activities related to the FLRA programs and
operations. In addition, the Inspector General is authorized to create Inspector General
policies and review new FLRA instructions to promote economic, efficient, and effective
agency programs, which prevent fraud, waste, abuse and mismanagement. The
Inspector General is responsible for keeping the Chairman, FLRA and the Congress
fully informed of problems and deficiencies, as well as, the necessity for corrective
actions. Public Law 100-504 and the Inspector General Act, as amended, mandate the
requirements, objectivity and independence of Federal Agency Inspectors General. The
Office of Inspector General’s 2008 budget is $333,680.20 which includes salaries for the
Inspector General and Administrative Assistant but is not sufficient for the Inspector


                                39th Semi Annual Report
                                      Page 4 of 37
General to perform the requirements and undergo senior level training related to and
required for the Inspector General’s job.

Office of the General Counsel: The Office of the General Counsel (OGC) is a
component of the FLRA. The General Counsel, who is appointed by the President with
the advice and consent of the Senate for a 5-year term, manages all OGC employees.
The OGC includes seven regional offices located in Atlanta, Boston, Chicago, Dallas,
Denver, San Francisco, and Washington, DC and one remote duty location in Brea,
California. The OGC investigates all unfair labor practice charges filed either by an
employee, a labor union or a federal agency and prosecutes all unfair labor practice
complaints before the Authority. The OGC is also responsible for receiving and
processing representation petitions and providing education services to the parties. The
General Counsel reviews all appeals and establishes case-handling policies and
procedures for the OGC.

The Federal Service Impasses Panel: The Federal Service Impasses Panel (FSIP or
the Panel) is composed of seven part-time Members who are appointed by the
President to serve for a 5-year term. One Member is appointed by the President to
serve as the Panel Chair. The Panel resolves bargaining impasses between Federal
agencies and unions representing Federal employees arising from negotiations over
conditions of employment under the Statute and the Federal Employees Flexible and
Compressed Work Schedules Act. If bargaining between the parties, followed by
mediation assistance, proves unsuccessful, the Panel has the authority to recommend
procedures and to take whatever action it deems necessary to resolve the impasse.

The Foreign Service Labor Relations Board: The Foreign Service Labor Relations
Board, (the Board) was created by the Foreign Service Act of 1980 to administer the
Labor-Management Relations Program for Foreign Service employees in the U.S.
Information Agency, the Agency for International Development, and the Departments of
State, Agriculture and Commerce. The Board is composed of three Members, including
the Chairman of the Authority who appoints the other two Members, who serve on a
part-time basis. The Chairman of the Authority also serves as Chairman of the Board.
The FLRA General Counsel acts as General Counsel for the Board, and the Authority
staff provides necessary support to the Board.

The Foreign Service Impasse Disputes Panel: The Foreign Service Impasse
Disputes Panel (the Disputes Panel) was also created by the Foreign Service Act of
1980. The Disputes Panel is composed of five part-time Members who are appointed
by the Chairman of the Foreign Service Labor Relations Board (the FLRA Chairman).
The Disputes Panel resolves bargaining impasses between Federal agencies and
Foreign Service personnel in the U.S. Information Agency, the Agency for International
Development, and the Departments of State, Agriculture, and Commerce, over
conditions of employment under the Foreign Service Act of 1980. The FSIP staff
supports the Disputes Panel.



                                39th Semi Annual Report
                                      Page 5 of 37
The FLRA's headquarters is located in Washington, D.C. The FLRA maintains regional
offices in Atlanta, Boston, Chicago, Dallas, Denver, San Francisco, and Washington,
D.C.

FLRA MISSION STATEMENT

The Federal Labor Relations Authority exercises leadership under the Federal Service
Labor-Management Relations Statute to promote stable, constructive labor relations
that contributes to a more effective Government.

The mission of the FLRA is to carry out five primary statutory responsibilities as
efficiently as possible and in a manner that gives full effect to the rights afforded
employees and agencies under the Statute.

Under the Statute, the primary responsibilities of the FLRA include:

   •   Determining the appropriateness of units for labor organization representation;
   •   Adjudicating exceptions to arbitrator's awards;
   •   Resolving complaints of unfair labor practices; and
   •   Resolving impasses and issues relating to the duty to bargain.

OFFICE OF INSPECTOR GENERAL

The Federal Labor Relations Authority Inspector General:

   -   Conducts and supervises investigations, inspections, internal reviews, audits,
       surveys and evaluations of the programs and operations of the FLRA;

   -   Provides leadership and coordination, and recommends actions to management,
       which:

        1.   Promote economy, efficiency, and effectiveness in agency programs and
             operations;

        2.   Prevent and detect fraud, waste, abuse, and mismanagement of
             Government resources, and

        3.   Inform the Chairman and Congress regarding problems and deficiencies,
             and the progress of corrective actions.

The Inspector General’s Office is currently staffed with one full time Inspector General
and one full time Administrative Assistant. When required and improved by the
Chairman, FLRA, the FLRA Inspector General uses contracted auditors to perform
FLRA audits. The FLRA, Inspector General has submitted a request to the
Chairman/Chief Financial Officer for an increase in operational funding in the FLRA
Office of Inspector General to conduct at least one audit in addition to the Financial

                                 39th Semi Annual Report
                                       Page 6 of 37
Statement Audit. So far, no response from management has been received regarding
this issue.

OFFICE OF INSPECTOR GENERAL MISSION STATEMENT

The mission of the FLRA Office of Inspector General is to provide FLRA leadership, with
an independent and objective assessment of the organization’s efficiency and
effectiveness. This is accomplished through proactive oversight activities of FLRA
operational processes. The Inspector General provides necessary oversight and serves
as a catalyst for improving and maximizing the efficiency and integrity of FLRA
programs and operations. The goal of the Inspector General's work is to maximize the
effectiveness of FLRA programs by evaluating performance and identifying ways to
make these programs more efficient and effective. In addition, the FLRA Inspector
General strives to prevent and detect fraud, waste, abuse, and mismanagement of the
FLRA’s resources and operations, which could adversely impact the organization’s
integrity and ability to perform its mission in a timely, customer responsive manner.

The primary objectives of the Office of Inspector General are as follows:

   •   To evaluate the efficiency and effectiveness of FLRA programs and resource
       management and identify best practices, as well as causative factors, impeding
       the accomplishment of the FLRA mission;

   •   To assist the Chairman and FLRA management in carrying out their
       responsibilities by providing them with objectives and timely information on the
       conduct of FLRA operations, together with the Inspector General’s independent
       analysis, conclusions, and recommendations;

   •   To use evaluations, internal reviews, and more traditional assessment tools of
       audits, inspections, and investigations, to maximize oversight and strengthen
       system and process controls; and

   •   To support the Administration and Congress in maximizing Government integrity
       and efficiency and minimizing the occurrence of fraud, waste, abuse, and
       mismanagement.

AUDIT/INTERNAL REVIEW ACTIVITY

During this reporting period the FLRA Office of the Inspector General performed the
following audits and reviews in compliance with Government auditing standards:

2007 FLRA Financial Statements Audit                                        Closed

The Final 2007 Financial Statement Audit has been completed and issued to FLRA
management for issuance to OMB. This Financial Statement audit affirmed that FLRA
Management transferred its financial responsibilities to the Department of Interior

                                 39th Semi Annual Report
                                       Page 7 of 37
National Business Center in FY 2006 and much of FLRA’s financial responsibilities
improved during FY 2007. However, it still took an excessive amount of time for FLRA
management to provide the necessary financial information for the 2007 Financial
Statement auditors. In FY 2007, no material weaknesses were noted and the audit
focused on previous findings and recommendations of the 2004-2006 Financial
Statement Audits which were not addressed by FLRA Management. The 2007
Financial Statement Audit did affirm that several previous findings and
recommendations relating to previous Financial Statement audits were finally
addressed. The FLRA Inspector General and Financial Statement auditors agree that
FLRA’s decision to turn Financial Management over to the National Business Center will
definitely improve FLRA’s financial management. Also, the Chairman, FLRA who was
also acting as the FLRA Chief Financial Officer has recently hired a professional and
experienced Chief Financial Officer who is focusing on the Agency’s issues and
interacting properly and professionally with the FLRA Inspector General.

During this reporting period, the FLRA Office of the Inspector General contracted
auditors conducted the required annual Financial Statement audit of FLRA's compliance
with Federal financial statement requirements. The auditors had a difficult time trying to
meet with the Chairman and now former Executive Director of the Agency to discuss
issues revealed both by previous financial statement audits and this 2007 audit. Once
again, FLRA management took an extensive amount of time to provide the auditors
necessary information and the 2007 Financial Audit could not be issued before the end
of this reporting period but should be issued by Management soon. Management
finished and issued the PAR and Auditors Financial Statement Report to the Office of
Management and Budget on April 4, 2008.

FLRA Inspector General Internal Review of FLRA Administrative                      Open
Programs

During this reporting period the FLRA Inspector General began an Internal Review of
FLRA Administrative Programs. Over the past year, FLRA management has focused
more properly on addressing administrative programs which required updating and
addressing the President’s Management Agenda requirements even though it was not
an official requirement for this Agency. The FLRA Inspector General’s internal review
will provide FLRA management with independent and objective issues that should be
addressed to improve the FLRA’s administrative environment even though Financial
Management, Human Resources and Information Technology have been contracted to
be handled by the Department of Interior National Business Center.

FLRA Inspector General Response to Congress and GAO regarding FLRA
Inspector Independence and Interaction with FLRA management as well as
Management’s response to Inspector General Findings and Recommendations .

                                                                     Closed
During this reporting period, the FLRA Inspector General responded to Senator
Waxman’s request for information regarding management’s response to corrective

                                 39th Semi Annual Report
                                       Page 8 of 37
actions from 2000 to 2008. The FLRA Inspector General also responded to GAO’s
request to the FLRA Inspector General to address and comment on questions which will
be provided to all ECIE/PCIE Inspectors General for all Inspector General environment
responses.

FLRA Inspector General Project on Government Oversight Survey                  Closed

During this reporting period the Project on Government Oversight (POGO) was issued
at the request of POGO. The FLRA Inspector General was involved in creating specific
issues for this survey with POGO and also conducted and issued the FLRA Inspector
General’s specific response to the POGO survey.

FLRA Inspector General Instructions and Oversight Reports                       Open

During this reporting period, the FLRA Inspector General again requested that
management place the FLRA Inspector General’s updated and newly created Inspector
General instructions which were created in 2006 and still are not on the FLRA Inspector
General Internet. The FLRA Inspector General can not enter instructions, audit and
internal review reports, Strategic Plans and other required information on the FLRA
internet and management has been told several times that it is important for FLRA
employees to have access to the Inspector General’s current policy and oversight
activities. Previous l998 and l999 Inspector General instructions are still on the FLRA
internet but not the new ones. Although all required Inspector General information is
sent by the FLRA Inspector General to the IGNET and entered immediately.
Management apparently does not want the FLRA Inspector General’s independent and
objective information accessible on its website which is totally improper.

ADDITIONAL ACTIVITIES

Executive Counsel of Integrity and Efficiency (ECIE)

The FLRA Inspector General attends the ECIE monthly meetings on a regular basis to
ensure that the FLRA Inspector General is current and aware of requirements,
operations and issues related to ECIE Inspectors General. The FLRA Inspector
General represents the ECIE on the PCIE/ECIE Human Resource Committee. The
FLRA Inspector General also will be undergoing an ECIE/PCIE Peer Review in May of
2008,

ECIE 2007 Awards for ECIE Inspector General Staff

The FLRA Inspector General was appointed as the Chairman of the 2007 ECIE
Inspector General Awards Program. Along with IGs from Equal Employment
Opportunity and the Federal Communications Commission, the ECIE Awards
Committee reviewed all performance proposals submitted by ECIE Inspectors General.
The results were provided to the PCIE/ECIE Awards committee for the Awards Affair on
October 23, 2007.

                                39th Semi Annual Report
                                      Page 9 of 37
Training

During this Reporting Period, the FLRA Inspector General attended the following
conferences which did not require financial expenditures for the FLRA Inspector
General. Ethics training was provided on line by the FLRA Ethics Officer. The FLRA
Inspector General is only allocated $500.00 per year for training which still is insufficient
for Inspector General senior level training and is used for the PCIE/ECIE annual
conference which is essential to attend. The training attended by the FLRA Inspector
General was:

October 10, 2007     Government Executive FISMA
February 2, 2008     Ethics
February 20, 2008    Government Executive Management Excellences
February 28. 2008    Government Executive Information Security

Oversight Corrective Actions

On January 2, 2008, the FLRA Inspector General received the Chairman’s response to
175 OIG findings and recommendations from 1998 to the 2007. The FLRA Chairman
requested that most of them be closed because they were nearly ten years old. The
FLRA Inspector General reviewed the FLRA Chairman’s responses and all of the
recommendations to see if they were no longer required. 46 of 175 recommendations
have been closed. Some open recommendations need specific contact, designated
law; current explanations of what specific actions were done relating to Management’s
request for closure for actions taken to the Inspector General before they can be closed.
Those that required management response and are still open are included in the
attached chart. Those that are closed are so marked and will be eliminated from the
corrective action log after this report.

Security Issues

During this reporting period. a security issue did occur on February 28, 2008 in Atlanta
Georgia. An Atlanta Regional Office employee was given permission by the senior
Attorney to take her computer and case file home so that she could go straight to the
complainant in the morning. On her way home, the subject employee stopped to do
some shopping. While in the store, someone broke into the car and stole her brief case
with contained her computer and case file. When the employee came out and saw what
happened, she immediately called the police and contacted the FLRA Acting Executive
Director and his Assistant. The Federal Protective Service was contacted to investigate
the issue.

Inspector General Corrective Actions

The following Inspector General Oversight recommendations chart indicate that
Management responded to recommended corrective actions issued by the FLRA
Inspector General from 1998 to 2007. The FLRA Inspector General checked into all,

                                  39th Semi Annual Report
                                        Page 10 of 37
most of which Management wanted closed because most of the early recommendations
not responded to previously were nearly ten years old. The recommendations which
the FLRA IG affirmed could be closed are indicated in the chart below. Those that were
left open require more specific information from FLRA Management before they can be
closed or eliminated. Management has been provided with specific information
regarding these requirements.




                               39th Semi Annual Report
                                     Page 11 of 37
   Response to 1998 --2007 FLRA Inspector General Oversight Activities Recommendations:

    Report No.              Recommendation                        Target Completion                   Status
   Issued Date
NARA Evaluation   1/8(a) Develop a self-valuation           The IG received Mgt. response to   Open
of FLRA           records mgt. checklist and distribute.    IG findings and recommendations
Section I                                                   by e-mail Jan.2, 08.
                  (b) Conduct periodic evaluations                                             Open

                  (c) Ensure recommendations are                                               Open
                  implemented.




Section II        II/1: Ensure that the maintenance of      The IG received Mgt. response to   Open
                  records documenting agency actions,       IG findings and recommendations
                  policies and procedures are current       by e-mail Jan.2, 08.
                  and distributed to staff.
                  II/2(a) Review working case files
                  retention                                                                    Open
                      (b) Meet with office Directors to
                  develop retention schedules for all                                          Open
                  records not in current schedule and
                  get for changes to current schedule.
                      (c) Develop retention schedules for
                  new records and make changes to                                              Open
                  current schedules.
                      (d) Submit new schedule for
                  Archivist’s approval                                                         Open
                      (e) Include approved schedule in
                  updated instruction 1323.1.                                                  Open
                  II/3: Require offices to separate
                  temporary and permanent case files.                                          Open
                  II/4: Ensure that photographs that are
                  a part of a permanent case file                                              Open
                  conform to 36 CFR Section 1232.
                  II/5: Establish a Vital Records                                              Open
                  Program.
                  II/6: Identify vital FLRA records and
                  enact measures to protect and update                                         Open
                  them, and ensure their availability
                  during emergencies.
                  II/7: Consider the offsite                                                   Open
                  maintenance/storage of copies of vital
                  records.

Section III       III/1. Identify which FLRA records are    The IG received Mgt. response to   Open
                  not covered by records schedule or        IG findings and recommendations
                  the General Record Schedules.             by e-mail Jan.2, 08
                  III/2: Develop and submit to NARA                                            Open
                  proposed records schedules for
                  unscheduled records.
                  III/3: Formalize the creation                                                Open
                  maintenance/disposition of
                  administrative records to the same
                  extent as program records.
                  III/4: Offer records mgt. Guidance to     The IG received Mgt. response to   Open
                  staff on electronic Records Mgt. And      IG findings and recommendations
                  FOIA procedures (including E-FOIA         by e-mail Jan.2, 08
                  amendments).

                                             39th Semi Annual Report
                                                   Page 12 of 37
Mgt. Letter        1. Update all FLRA delegation of           The IG received Mgt. response to   Open
4/19/98            authority, memoranda of                    IG findings and recommendations
Instructions/MOU   understanding, and instructions to         by e-mail Jan.2, 08
Update             reflect current mission.


                   2. Distribute updated policy to all        The IG received Mgt. response to   Open
                   managers and make them available           IG findings and recommendations
                   to all employees in one central folder     by e-mail Jan.2, 08
                   on the FLRA website along with
                   updated index.




9/28/99 OPM        1. Establish an accountability system      The IG received Mgt. response to   Open
Review of FLRA     to assess mgt. utilization of human        IG findings and recommendations
Human              resources.                                 by e-mail Jan.2, 08
Resources
Program
                                                              The IG received Mgt. response to   Open
                   2. Study quality of performance            IG findings and recommendations
                   feedback and provide strategies for        by e-mail Jan.2, 08
                   ensuring sufficient quality
                   performance feedback is provided to
                   employees


Audit of the       1. Review all current personnel files      The IG received Mgt. response to   Open
FLRA FY 98         to ensure payroll, leave and benefits      IG findings and recommendations
Financial          information is correct and reconciles      by e-mail Jan.2, 08
Statements and     that which is maintained by Denver
Central Services   Payroll Operations Division and take
Fund (Report       appropriate action to reconcile any
No. 99-01-         overpayments or under payment
September          found. The results of this effort should
1999).             be specifically reported to the FLRA
                   Inspector General.


                   2. Review, update and revise as            The IG received Mgt. response to   Open
                   necessary, FLRA Regulations 2301.1         IG findings and recommendations
                   Financial Mgt. System to reflect           by e-mail Jan.2, 08
                   contemporary policy, including a
                   requirement for a documented yearly
                   review of financial mgt. statements by
                   the Executive Director and audits of
                   financial statements by independent
                   source on a yearly basis


Internal Review    1. Create centralized Administrative       The IG received Mgt. response to   Open
of FLRA External   Tracking System.                           IG findings and recommendations
Affairs May 2000                                              by e-mail Jan.2, 08
                   2. Develop/implement FLRA External                                            Open
                   Affairs Policy.




                                              39th Semi Annual Report
                                                    Page 13 of 37
                   3. Create Agency Policy Compliance        The IG received Mgt. response to   Open
                   with the Paperwork Reduction Act.         IG findings and recommendations
                                                             by e-mail Jan.2, 08.



FLRA               13. Define rules of behavior for each     The IG received Mgt. response to   Open
Information        system based on management’s              IG findings and recommendations
System Security    defined level of acceptable risk.         by e-mail Jan.2, 08.
Audit January
2001


Internal Review    1. Director, Budget & Finance             The IG received Mgt. response to   Closed 1/29/08.
of FLRA’s Travel   Division (BFD) should prepare             IG findings and recommendations
Program 9/18/01    overarching general agency travel         by e-mail Jan.2, 08
                   policies, which address requirements,
                   expectations and prohibitions.


                   2. Update, revise or cancel existing      The IG received Mgt. response to   Closed 1/29/08.
                   obsolete travel instructions and          IG findings and recommendations
                   guidance including:                       by e-mail Jan.2, 08
                   - FLRA travel Guideline Handbook.
                   - Guidance on reimbursable support.

                   3. Ensure that all lists and policies     The IG received Mgt. response to   Closed 1/29/08.
                   that are sent to the National Business    IG findings and recommendations
                   Center, national Travel Service, Inc.,    by e-mail Jan.2, 08
                   and Citibank are current.

                   4. Director, BFD should discuss the       The IG received Mgt. response to   Closed 1/29/08
                   use of FLRA’s formatted travel            IG findings and recommendations
                   reimbursement vouchers and address        by e-mail Jan.2, 08
                   any deficiencies with the Director,
                   IRM.
                                                             The IG received Mgt. response to   Open
                   5. FLRA Travel Manager should             IG findings and recommendations
                   request that National Travel website      by e-mail Jan.2, 08
                   to accommodate FLRA’s travelers
                   need and ensure that all FLRA
                   employees are trained to use the
                   website.



                   6. Require FLRA travelers to use          Mgt. response to IG findings and   Closed 1/19/08.
                   Hotel Occupancy tax elimination           recommendations t e-mail 12-10-
                   forms while on government travel.         07.
                   Compile list of states that honor and
                   fail to honor such forms and distribute
                   such forms and distribute to FLRA
                   employees.



                   8. Director BFD should work with          The IG received Mgt. response to   Closed 1/29/08
                   National Business Center to set           IG findings and recommendations
                   criteria, standards and policies for      by e-mail Jan.2, 08.
                   travel reimbursement.




                                               39th Semi Annual Report
                                                     Page 14 of 37
Internal Review    1. Conduct a cost benefit analysis for   The IG received Mgt. response to   Closed 1/29/08
of FLRA Travel     automating the procurement system        IG findings and recommendations
Program            and implemented if cost effective.       by e-mail Jan.2, 08.
September 2001.

                   2. Establish a MOA with an executive     The IG received Mgt. response to   Open
                   Agency to administrative FLRA            IG findings and recommendations
                   contract appeals.                        by e-mail Jan.2, 08




                   3. Brief FLRA management on basic        The IG received Mgt. response to   Open
                   federal procurement requirements.        IG findings and recommendations
                                                            by e-mail Jan.2, 08


Mgt. Letter Fair   1. Create Internal policy (include       The IG received Mgt. response to   Open
Act Compliance     competition plan) for contracting        IG findings and recommendations
June 4, 2002       commercial activities.                   by e-mail Jan.2, 08

                   2. Annually see mgt. input validate
                   inherently governmental and              The IG received Mgt. response to   Open
                   commercial activities.                   IG findings and recommendations
                                                            by e-mail Jan.2, 08.

                   3. Perform cost analysis on positions    The IG received Mgt. response to   Open
                   identified in the FY 2002 and future     IG findings and recommendations
                   Fair Act submission private sector as    by e-mail Jan.2, 08.
                   well as federal organizations before
                   contracting with federal agencies.

                   4. Include justifications retaining      The IG received Mgt. response to   Open
                   defined non-inherently government        IG findings and recommendations
                   positions in the FLRA.                   by e-mail Jan.2, 08.


                                                                                               Closed 1/29/98.
                   5. Assign future responsibility for      The IG received Mgt. response to
                   competitive outsourcing including Fair   IG findings and recommendations
                   Act Compliance, to the FLRA              by e-mail Jan.2, 08.
                   Contracting Officer.


                                                            The IG received Mgt. response to   Closed 1/29/08
Case Handling      1. Provide Regional Office Personnel     IG findings and recommendations
                   contemporary training in customer        by e-mail Jan.2, 08.
                   service, communication, behavioral
                   and other pertinent human capital
                   training.


                   2. Provide Atlanta Regional Office       The IG received Mgt. response to   Closed 1/29/08.
                   employees training on federal, FLRA      IG findings and recommendations
                   and OCG administrative requirements      by e-mail Jan.2, 08.
                   including employee rights and
                   responsibilities.


                   3. Provide new Atlanta Regional          The IG received Mgt. response to   Open
                   Office employees with on site training   IG findings and recommendations
                   on OGC unfair labor practice charge      by e-mail Jan.2, 08.


                                              39th Semi Annual Report
                                                    Page 15 of 37
                  and representation case processing
                  policies.


                  5. Obtain a qualified person to           The IG received Mgt. response to   Open
                  perform a Myers Briggs Analysis and       IG findings and recommendations
                  use this analysis for employees to        by e-mail Jan.2, 08.
                  understand behavioral interactions,
                  perceptions and reactions.


Internal Review   1. Create and provide FLRA                The IG received Mgt. response to   Closed 1/29/08.
of Debt           employees with policy/guidance on         IG findings and recommendations
Collection        the use of Government credit card         by e-mail Jan.2, 08.
November 02       (both previous IG audit/internal
                  reviews on Simplified Acquisitions and
                  the Travel Program recommended
                  this). FLRA policy should incorporate
                  the cancellation of a credit card if an
                  individual misuses the card more than
                  once.


                  2. Require the FLRA Contracting           The IG received Mgt. response to   Closed 1/29/08
                  Officer and Travel Manager to             IG findings and recommendations
                  conduct monthly reviews on                by e-mail Jan.2, 08.
                  government credit card usage by
                  FLRA employees, pursue
                  questionable items and documents
                  findings. The Executive Director
                  should review this document.


                  3. Require supervisors to provide         The IG received Mgt. response to   Closed 1/29/08.
                  employees information on the use and      IG findings and recommendations
                  misuse of the government credit card      by e-mail Jan.2, 08
                  and provide more oversight over
                  employees who have misused their
                  cards.



                  1. Budget and Finance Division            The IG received Mgt. response to   Closed 1/29/08
                  (BFD) should generate transactional       IG findings and recommendations
                  report for General Ledger Accounts        by e-mail Jan.2, 08.
                  #4870 and 4880 to determine the
                  nature of transactions being recorded,
                  processed and changed that are
                  needed to properly record transaction
                  affecting these accounts.


                  2. BFD should accrue for annual           The IG received Mgt. response to   Closed 1/29/08.
                  invoices received and not yet             IG findings and recommendations
                  processed with a fiscal year              by e-mail Jan.2, 08
                  subsequent processing date.

                  3. BFD should check Citibank              The IG received Mgt. response to   Closed 1/29/08
                  invoices received and not yet             IG findings and recommendations
                  processed by the end of the fiscal        by e-mail Jan.2, 08.
                  year and establish dollar thresholds
                  that have not been accrued in the


                                            39th Semi Annual Report
                                                  Page 16 of 37
Internal Review   previous invoice accrual and
of Debt           determine if goods or services have
Collection        been received prior to the end of the
November 02       fiscal year. This determination should
                  be documented.


                  4. BFD should review old,                   The IG received Mgt. response to   Closed 1/29/08
                  undelivered orders and not obligate         IG findings and recommendations
                  them prior to fiscal year end if they are   by e-mail Jan.2, 08.
                  no longer valid.


                  5. BFD should resend invoices for           The IG received Mgt. response to   Closed 1/29/08.
                  Federal Agency receivable and have          IG findings and recommendations
                  the National Business Center                by e-mail Jan.2, 08.
                  (Denver) pursue these collections.


                  6. FLRA should request two copies of        The IG received Mgt. response to   Open
                  non-reproducible reports in order to        IG findings and recommendations
                  ensure support documents are                by e-mail Jan.2, 08
                  retained. BFD should purse retaining
                  electronic versions of system-
                  generated reports.



                  7. FLRA should implement                    The IG received Mgt. response to   Open
                  procedures to ensure that both the          IG findings and recommendations
                  journal entries for the disposition of      by e-mail Jan.2, 08
                  fixed assets and correction of
                  expenditures erroneously capitalized
                  as fixed assets are performed in a
                  timely manner to ensure proper
                  statement of the general ledger at the
                  fiscal year end.

                  8. Expenditures recorded to fixed           The IG received Mgt. response to   Closed 1/29/08
                  assets should be properly reviewed          IG findings and recommendations
                  prior to recording to ensure each of        by e-mail Jan.2, 08
                  the expenditures meet the definition of
                  capitalized assets.


                  9. The Administrative Services              The IG received Mgt. response to   Closed 1/29/08.
                  Division should review copies and           IG findings and recommendations
                  other office automation centrally and       by e-mail Jan.2, 08
                  the number of vendors should be
                  minimized to obtain economic
                  purchases and efficiencies in
                  maintenance and operation.

                  10. FLRA should identify furniture on       The IG received Mgt. response to   Open
                  a replacement cycle with the Agency’s       IG findings and recommendations
                  Central Services Fund to provide a          by e-mail Jan.2, 08
                  systematic method for budgeting for
                  and replacing furniture.


                  11. BFD should implement the use of         The IG received Mgt. response to   Open
                  electronic spreadsheets as a standard       IG findings and recommendations


                                              39th Semi Annual Report
                                                    Page 17 of 37
Internal Review   for accounting documentation to allow      by e-mail Jan.2, 08
of Debt           for easy documentation of explanatory
Collection        notes and imputing changes.
November 02


                  12. FLRA should include an amount          The IG received Mgt. response to   Open
                  in the accrued FECA liability for          IG findings and recommendations
                  estimated fourth quarter FECA claims       by e-mail Jan.2, 08
                  costs.



                  13. FLRA should record liability for       The IG received Mgt. response to   Open
                  future workers’ compensation.              IG findings and recommendations
                                                             by e-mail Jan.2, 08




                  14. The FLRA should pursue the             The IG received Mgt. response to   Closed 1/19/08.
                  filling of the BFD Accounting Officer      IG findings and recommendations
                  position.                                  by e-mail Jan.2, 08




                  15. The FLRA should enhance the            The IG received Mgt. response to   Open
                  Accounting Manual with the detail of       IG findings and recommendations
                  specific procedures for the                by e-mail Jan.2, 08
                  department staff



                  16. FLRA should develop written            The IG received Mgt. response to   Open
                  budget information and execution           IG findings and recommendations
                  policy that outlines the process; states   by e-mail Jan.2, 08.
                  procedures utilized and clarify FLRA
                  approaches and methodology.




                  17. Significant changes or direction       The IG received Mgt. response to   Open
                  from the initial budget submission         IG findings and recommendations
                  should be communicated to cost             by e-mail Jan.2, 08.
                  center managers in a timely manner.



                  18. FLRA components and                    The IG received Mgt. response to   Open
                  subcomponents should develop data          IG findings and recommendations
                  to support effective and justifiable       by e-mail Jan.2, 08.
                  resource allocations.



                  19. The FLRA should consider               The IG received Mgt. response to   Open
                  separating the information Technology      IG findings and recommendations
                  budget from the Agency Central             by e-mail Jan.2, 08.


                                             39th Semi Annual Report
                                                   Page 18 of 37
Internal Review   Services Fund and place it under the
of Debt           responsibility of the Chief information
Collection        Officer.
November 02


Executive         1. FLRA Authority Members/Chief           The IG received Mgt. response to   Open
Summary of        Counsels should develop standard          IG findings and recommendations
FLRA Case         policy and timeliness for case            by e-mail Jan.2, 08.
Processing        processing, including the average
                  length of time the case should be at
                  various stages of its process.



                  2. The FLRA Chief Counsel need to         The IG received Mgt. response to   Closed 1//29/08
                  work with the Director, Case Control      IG findings and recommendations
                  Office to expand the current system       by e-mail Jan.2, 08.
                  and establish a complete and
                  interactive automated Case Tracking
                  System.



                  3. FLRA Authority Members should          The IG received Mgt. response to   Closed 1/29/08.
                  standardize their case processes,         IG findings and recommendations
                  internal goals, internal controls and     by e-mail Jan.2, 08.
                  performance standards for all of their
                  employees


                  4. FLRA Authority Member should           The IG received Mgt. response to   Open
                  create a standard case processing         IG findings and recommendations
                  policy (or manual) to ensure that         by e-mail Jan.2, 08.
                  current and new employees perform
                  their duties appropriately.

                  5. The Screening Committee should         The IG received Mgt. response to   Open
                  be required to provide more merit         IG findings and recommendations
                  review and legal issue information on     by e-mail Jan.2, 08.
                  the cases they review.


                  6. The Authority cases should be          The IG received Mgt. response to   Closed 1/29/08
                  reviewed thoroughly by each Chief         IG findings and recommendations
                  Counsel.                                  by e-mail Jan.2, 08.



                  7. Input from the Members at the time     The IG received Mgt. response to   Open
                  of case assignment and more               IG findings and recommendations
                  interaction among the Members and         by e-mail Jan.2, 08.
                  their senior staff would eliminate
                  repetition.



                  8. The Authority should consolidate       The IG received Mgt. response to   Open
                  the issuance of the Issue                 IG findings and recommendations
                  Memorandum for noncomplex cases.          by e-mail Jan.2, 08.




                                             39th Semi Annual Report
                                                   Page 19 of 37
Executive      9. The Director, Case Control Office,    The IG received Mgt. response to   Open
Summary of     Members’ Senior Chief Counsels           IG findings and recommendations
FLRA Case      should interact again with the Chief     by e-mail Jan.2, 08.
Processing     Information Officer and Director,
Cont.          Information Resources Management
               to improve the current case tracking
               system to support Authority Member
               Office case tracking process.

               10. Add an additional FTE to the         The IG received Mgt. response to   Open
               Collaborative Alternative Dispute        IG findings and recommendations
               Resolution Office to enable the          by e-mail Jan.2, 08.
               Authority process of resolution to
               expand.


                                                        The IG received Mgt. response to   Open
               11. The Authority should plan a          IG findings and recommendations
               training conference for Federal          by e-mail Jan.2, 08.
               agencies.




               1. Human Resources Division should       The IG received Mgt. response to   Closed 1/29/08
Follow-up on   prepare a work plan specifically         IG findings and recommendations
FY/2000 FLRA   related to the FY 2000 Findings and      by e-mail Jan.2, 08.
IG Review of   Recommendations.
FLRA Human
Capital                                                                                    Open
               2. Establish an integrated senior        The IG received Mgt. response to
               leadership/mgt. team to address          IG findings and recommendations
               human capital issues and provide         by e-mail Jan.2, 08.
               justified recommendations to the
               Chairman.


               3. Reinstate monthly mgt. meetings       The IG received Mgt. response to   Open
               during which current mgt. issues are     IG findings and recommendations
               discussed and each manager is            by e-mail Jan.2, 08.
               required to brief all managers on
               major activities.



               4. FLRA components should be             The IG received Mgt. response to   Open
               briefed on behavior and engage in        IG findings and recommendations
               personality testing. (Myers Briggs       by e-mail Jan.2, 08.
               Type indicator and/or Strong Interest
               Inventory). This could be done in –
               house or at an offsite meeting.



               5. The Agency needs to compile           The IG received Mgt. response to   Open
               more human capital statistics to make    IG findings and recommendations
               proper human capital decisions. The      by e-mail Jan.2, 08.
               following data should be considered to
               be collected by HRD:


                                          39th Semi Annual Report
                                                Page 20 of 37
Follow-up on      - Workforce data,
FY/2000 FLRA      - Skills inventory,
IG Review of      - Dates and dispersal of
FLRA Human        performance appraisal,
Capital           - Yearly vacancies and time
                  period required to fill them.
                  - Yearly data on number and
                  cost of bonuses, awards and
                  other incentives,
                  - Yearly statistics on
                  grievances,
                  - EEO complaints and costs in
                  dollars,
                  - Costs of promotions and within
                  grade increases, and amount per
                  employee spent for training and its
                  percentage of the operating budget.

                  6. Update the FLRA Strategic Plan          The IG received Mgt. response to   Open
                  and have management revise                 IG findings and recommendations
                  component action plans and                 by e-mail Jan.2, 08.
                  employee work and performance
                  plans with focus on agency-wide
                  results.

                  7. The Chairman, FLRA should               The IG received Mgt. response to   Closed 1/29/08
                  appoint a Human Capital Officer            IG findings and recommendations
                  and/or Senior Mgt. Committee who           by e-mail Jan.2, 08.
                  should address Agency-wide human
                  capital issues and work with the
                  Director, HRD to ensure agency-wide
                  compliance with the President’s Mgt.
                  Agenda’s human capital standards.


                  8. FLRA/HRD should perform an              The IG received Mgt. response to   Open
                  Agency-wide employee skills                IG findings and recommendations
                  inventory. It definitely would provide a   by e-mail Jan.2, 08.
                  baseline for skill needs, employee
                  training and future hiring.


                  9. All FLRA supervisors should be          The IG received Mgt. response to   Closed 1/29/08.
                  required to provide employees with         IG findings and recommendations
                  work plans and individual                  by e-mail Jan.2, 08.
                  development plans.


Internal Review   1. Add contemporary safety, health,        The IG received Mgt. response to   Open
of FLRA’s         and security information including the     IG findings and recommendations
Occupational      Emergency Plan and a current list of       by e-mail Jan.2, 08.
Safety and        FLRA policy to the website as well as
Health August     the Orientation Package given to new
2003              employees.

                                                                                                Open
                  2. Increase Agency-wide training for       The IG received Mgt. response to
                  FLRA safety and health programs.           IG findings and recommendations
                  Ensure that all supervisors are            by e-mail Jan.2, 08.
                  knowledge, aware of OSHA
                  requirements and provide
                  contemporary information to their


                                             39th Semi Annual Report
                                                   Page 21 of 37
                  staffs. Include volunteer training to
                  CPR and increase safety evacuation
                  information to include maps of areas
                  to ensure employee safety.




                  3. FLRA/HRD should ensure that all         The IG received Mgt. response to   Open
                  OSHA statistics and records be             IG findings and recommendations
                  maintained so that the FLRA is in          by e-mail Jan.2, 08.
                  compliance with the OSHA
                  requirements.


                  4. FLRA/HRD should expand its              The IG received Mgt. response to   Open
                  definition of sensitive positions to, at   IG findings and recommendations
                  least, include Security Officers,          by e-mail Jan.2, 08.
                  Computer information Officers and
                  both senior and line managers and
                  comply within its Drug Free
                  Workplace Plan by randomly testing
                  at least one person per year.




                  5. The FLRA Exe. Dir. and Admin.           The IG received Mgt. response to   Open
                  Ser. Div. Should review the                IG findings and recommendations
                  Interagency Agreements with the            by e-mail Jan.2, 08.
                  Dept. of HHS and ensure that all
                  stated provisions are current and
                  addressed.



                  6. The FLRA Safety Program                 The IG received Mgt. response to   Open
                  Manager should ensure that all FLRA        IG findings and recommendations
                  subcomponents maintain                     by e-mail Jan.2, 08.
                  standardized sufficient and accessible
                  safety/protective equipment.


                  7. FLRA management should                  The IG received Mgt. response to   Open
                  prioritize the development of an FLRA      IG findings and recommendations
                  Continuity of Operations                   by e-mail Jan.2, 08.
                  (Contingency) Plan.

                  8. Annual FLRA facility
                  (Headquarters and Regional Offices)        The IG received Mgt. response to   Open
                  safety checks should be performed by       IG findings and recommendations
                  the building Security Officer or FLRA      by e-mail Jan.2, 08.
                  Security Officer, and
                  maintained/documented and followed
                  up by ASD’s Security Officer.


Internal Review   1. Because of the significant amount       The IG received Mgt. response to   Open
of FLRA’s         of travel by some agency component         IG findings and recommendations
Government        and subcomponent employees,                by e-mail Jan.2, 08.
Vehicles August   appropriate agency internal travel
2003              policy and statistics need to be


                                               39th Semi Annual Report
                                                     Page 22 of 37
                  defined and maintained by all three
                  components of the Agency to properly
                  assess travel costs and budget travel
                  allocations.


                  2. FLRA Budget and Finance Division       The IG received Mgt. response to   Open
                  Dir. should semiannually monitor          IG findings and recommendations
                  travel transportation mileage logs and    by e-mail Jan.2, 08.
                  related costs, travel safety and
                  security incidents and other related
                  expenditures cost and provide internal
                  semi-annually reports to the
                  Chairman, FLRA, Counsel, Chairman
                  of FSIP, and Dir. of Admin. Law
                  Judges.


                  3. Director of Administrative Service     The IG received Mgt. response to   Open (3(a)(b))
                  Division should:                          IG findings and recommendations
                                                            by e-mail Jan.2, 08.
                  (a) Work with building owners and
                  maintenance personnel to ensure that
                  parking garage exterior doors
                  remained locked and secured.
                  (b) .Install door locks on all interior
                  doors.


Office of the     1. The FLRA should comply with            The IG received Mgt. response to   Open
General Counsel   Public Law 106346 and create policy       IG findings and recommendations
Internal Review   for employees who are or will             by e-mail Jan.2, 08.
of Remote Duty    volunteer to work full-time at home
Locations March   prior to making a decision to eliminate
2004              their remote duty stations.


Contracting       1. FLRA mgt. should focus on              The IG received Mgt. response to   Open
Report August     creating and/or updating policy for       IG findings and recommendations
2004              their procurement operations and          by e-mail Jan.2, 08.
                  providing this policy to contracting
                  employees to that the subject
                  employees are properly informed of
                  changes. Contract file information
                  should be standardized and submitted
                  proposals should contain documented
                  evaluations. Task order written by
                  FLRA managers should include
                  evaluation criteria by which
                  contractors will be evaluated.



                  2. The FLRA Contracting Officer           The IG received Mgt. response to   Closed 1/29/08
                  needs to understand that, in spite of     IG findings and recommendations
                  his/her authority and independence to     by e-mail Jan.2, 08.
                  handle claims and make final
                  decisions, FLRA Mgt should be
                  informed of contract related problems
                  and claims that have been filed
                  against the Agency prior to
                  processing, especially when the


                                             39th Semi Annual Report
                                                   Page 23 of 37
                   alternative dispute resolution process
                   is to be used.

                                                                                                  Open
                   3. FLRA Mgt. should focus more on           The IG received Mgt. response to
                   human capital and customer orient           IG findings and recommendations
                   relationships. Also FLRA                    by e-mail Jan.2, 08.
                   management should be aware of and
                   support appropriate alternative
                   dispute resolution for claims as they
                   do for unfair labor practice charges
                   and arbitration cases, which provide
                   greater satisfaction to the filing party,
                   innovative methods of resolving
                   disputes and greater efficiency in
                   achieving settlements.




                   4. FLRA mgt. should ensure that             The IG received Mgt. response to   Open
                   senior appointed managers have              IG findings and recommendations
                   knowledge and/or are provided with          by e-mail Jan.2, 08.
                   necessary training in the program they
                   are responsible for managing.


FY 2004 Audit of   1. FLRA CIO should develop and              The IG received Mgt. response to   Closed 1/29/08.
FLRA Security      maintain:                                   IG findings and recommendations
Programs                                                       by e-mail Jan.2, 08.
                   (a) A visitor log that all data
                   center visitors are required to sign
                   upon arrival and departure;

                   (b) An emergency contact line list,
                   and;

                   (c) ASD develops effective policies
                   for managing Kastle Keys and direct
                   ASD security personnel to implement
                   procedures in accord with the policies
                   adopted.

                   1(2) FLRA CIO should:                       The IG received Mgt. response to   Open
                                                               IG findings and recommendations
                   (a) Fully develop disaster recovery, IT     by e-mail Jan.2, 08.
                   contingency or operations plan:

                   (b) Provide training to enable
                   personnel to effectively implement all
                   plans and require periodic training;
                   and,

                   (c) After each plan is implemented,
                   conduct and document testing to
                   ensure that each plan is responsive,
                   and periodically reevaluate plans and
                   keep plans current.




                                                39th Semi Annual Report
                                                      Page 24 of 37
FY 2004 Audit of   2(4). FLRA CIO should Perform a           The IG received Mgt. response to   Closed 1/29/08
FLRA Security      C&A review in accordance with NIST        IG findings and recommendations
Programs           standards and authorizes the general      by e-mail Jan.2, 08.
9/30/2004          support system for processing.




                   3(5). FLRA should ensure that a           The IG received Mgt. response to   Open
                   management official authorizes in         IG findings and recommendations
                   writing the use of each general           by e-mail Jan.2, 08.
                   support system based on an
                   acceptance of risks identified with the
                   system certification process as
                   described by NIST.




                   4(6) FLRA should ensure that staff        The IG received Mgt. response to   Open
                   members adhere to documented              IG findings and recommendations
                   policies and procedures for               by e-mail Jan.2, 08.
                   performing backups of network file
                   and mail servers.


                   5(7). FLRA CIO should:                    The IG received Mgt. response to   Closed 1/29/08
                                                             IG findings and recommendations
                   (a) Develop a program to provide          by e-mail Jan.2, 08.
                   annual security awareness training to
                   all FLRA employees in accordance
                   with OMB requirements and;

                   (b) Develop proper procedures to
                   accurately assess and report on the
                   program’s level of attendance and
                   effectiveness.


                   (6)8. FLRA CIO should develop a           The IG received Mgt. response to   Open
                   complete Security Program Plan,           IG findings and recommendations
                   arrange for appropriate personnel to      by e-mail Jan.2, 08.
                   review it, revise the plan accordingly
                   and obtain approval cognizant
                   executive management.


                   (7)9. FLRA CIO should develop,            The IG received Mgt. response to   Open
                   document and implement an incident        IG findings and recommendations
                   response plan consistent with NIST        by e-mail Jan.2, 08.
                   and OMB criteria.


                   8(10). FLRA should:

                   (a) Take immediate action to ensure       The IG received Mgt. response to   Open
                   timely development and                    IG findings and recommendations
                   implementation of policies and            by e-mail Jan.2, 08.
                   procedures necessary to establish
                   and support FLRA’s information
                   security program, and;


                                              39th Semi Annual Report
                                                    Page 25 of 37
(b) Develop and implement policies                                             Open
and procedures to track evaluate, and
monitor FLRA’s information and
information systems security program
in accordance with OMB Circular A-
130, Appendix III; and

(c) Ensure proper and timely                                                   Open
reporting to OMB and Congress.



9(11). FLRA CIO should:                     The IG received Mgt. response to   Open
                                            IG findings and recommendations
(a) Develop policies and procedures         by e-mail Jan.2, 08.
requiring that patches be properly
tested in a test environment before
being placed into production.
(b) Develop a test lab to adequately
test patches; and
(c) Provide training to individuals to
ensure that multiple personnel can
perform critical functions and activities
can be performed by multiple
personnel.

10(12). FLRA CIO should:                    The IG received Mgt. response to   Open
                                            IG findings and recommendations
(a) Develop and implement a formal          by e-mail Jan.2, 08.
SDLC methodology based on NIST
guidance and ensure the policy
addresses the following elements:
- Sensitivity of data to be processed
in the system,

- Resources required for adequately
securing the system,

- Input form the equivalent of an
Investment Review Board,

- Authorization for software
modification documentation and
maintenance,

- Budget request to include security
resources for the system,

- Security controls consistent with
and integral to senior management’s
standards, and

- Security requirements to be
included in solicitation documentation.
(b) Develop and implement a formal
change control policy outlining the
procedures needed to ensure that
system configuration changes are
properly documented, authorized,
approved, and tested before being


                            39th Semi Annual Report
                                  Page 26 of 37
                moved into production or
                implemented.

                11(13) FLRA Mgt. should:                     The IG received Mgt. response to   Open
                - Suspend access or implement                IG findings and recommendations
                adequate procedures to mitigate risks        by e-mail Jan.2, 08.
                associated with CIO’s access
                privileges to the network domain
                servers and local account passwords
                and follow through with the Windows
                2000 migration and rollout initiatives
                to ensure that current passwords that
                have been compromised due to the
                departure of the network manager do
                not continue to present the Agency
                with a major security risks.

                12(14) FLRA CIO should:                      The IG received Mgt. response to   Open
                (a) Develop policies and procedures          IG findings and recommendations
                requiring periodic review of user            by e-mail Jan.2, 08.
                access controlled, and;

                (b) Analyze generic accounts                                                    Open
                currently active on the network
                operating system to ensure that they
                are appropriate and that account
                access are controlled and monitored.


                13(15) Mgt. needs to focus on                The IG received Mgt. response to   Closed 1/29/08
                information technology to improve            IG findings and recommendations
                FLRA information technology                  by e-mail Jan.2, 08.
                systems. Mgt. should review previous
                IG Reports, which contain information
                security findings and
                recommendations



                14(16) FLRA should obtain the proper         The IG received Mgt. response to   Open
                testing material and scan all FLRA           IG findings and recommendations
                laptops/computers throughout the             by e-mail Jan.2, 08.
                Agency to see if they contain improper
                websites.



Websites        1. Mgt. should reinstate technology          The IG received Mgt. response to   Closed 1/29/08
Investigation   as an integral part of its strategic plan.   IG findings and recommendations
3/3/05                                                       by e-mail Jan.2, 08.




                2. Mgt. should reinstate its sub             The IG received Mgt. response to   Closed 1/29/08
                component Technology Committee               IG findings and recommendations
                which could provide mission related          by e-mail Jan.2, 08.
                problems and requirements to the
                FLRA CIO.




                                             39th Semi Annual Report
                                                   Page 27 of 37
2005 Financial    1. Executive Mgt. should start the        The IG received Mgt. response to   Open
Statement April   agency towards FISMA compliance by        IG findings and recommendations
14, 2006          providing support for correcting the      by e-mail Jan.2, 08.
                  out-of-compliance situation. This
                  support should consist of memoranda,
                  policy and documented directions, but
                  also of financial and budgetary
                  resource allocation for the goods,
                  services, and personnel needs of the
                  agency to correct the situation. This
                  support, along with the undertaking of
                  corrective actions by the Chief
                  information Officers and other FLRA
                  Staff, should be focused on
                  implementing the provided to the
                  FLRA from the fiscal year 2004
                  FISMA Audit Report.


                  2. Executive management should            The IG received Mgt. response to   Open
                  establish who is to perform Chief         IG findings and recommendations
                  Financial Officer duties and              by e-mail Jan.2, 08.
                  responsibilities for the agency. This
                  individual should have the appropriate
                  knowledge and skills needed for
                  fulfilling all the necessary duties and
                  responsibilities.

                                                                                               Closed 1/29/98.
                  3. Executive management should            The IG received Mgt. response to
                  ensure agency policies and                IG findings and recommendations
                  procedures are kept current and in        by e-mail Jan.2, 08.
                  accordance with existing laws and
                  regulations. This assurance would
                  entail monitoring existing policies and
                  procedures and identifying those that
                  are in need of revision. The same
                  should be for those policies and
                  procedures submitted by agency
                  Director concerning changes needed
                  for adoption of the policy or procedure
                  by the agency.
                                                                                               Closed 1/19/08
                  4. FLRA should ensure continuity of       The IG received Mgt. response to
                  its operations through having better      IG findings and recommendations
                  support providers and their services.     by e-mail Jan.2, 08.
                  This support could be provided in
                  many different ways, including
                  obtaining external system support
                  providers and their services.




                                                                                               Open
                  As an interim measure, other FLRA         The IG received Mgt. response to
                  employees should be given the             IG findings and recommendations
                  appropriate training and guidance to      by e-mail Jan.2, 08.
                  establish adequate support for the
                  continued functions. This would
                  ensure that is a sufficient “backup
                  knowledge base” in other employees


                                             39th Semi Annual Report
                                                   Page 28 of 37
in the event of a loss of a single
critical employee.

5. FLRA should determine the best         The IG received Mgt. response to   Closed 1/29/08
system source for its overall             IG findings and recommendations
accounting, budgetary, and financial      by e-mail Jan.2, 08.
need on a going forward basis. This
may involve determining other options
available from the U.S. Department of
the Interior as well as alternative
private sector or governmental
sources that can efficiently meet
FLRA’s needs.

6. Detailed fixed assets records          The IG received Mgt. response to   Closed 1/29/08
should be maintained and reconciled       IG findings and recommendations
to the general ledger on a timely basis   by e-mail Jan.2, 08.
to ensure accurate accounting for
assets. These records should be
timely and appropriate updated each
period for asset additions and
subtractions resulting from
acquisitions, trade, disposals, etc.


7. Mgt should address cash                                                   Open
disbursement procedures, accounts
payable procedures and internal
controls in its development of an
improved system of fiscal and
accounting management. The
process of accounts payable should
be core function that is contained
within the accounting system.


8. The Executive Dir. should examine      Not responded to by                Open
the procurement process between the       Management.
Divisions of Budget and Finance and
Administrative Services and ensure
the proper policies and procedures
are in place to provide that FLRA
obligations are recorded into the
agency accounting records in an
accurate and timely manner. In
addition, the Executive Director
should ensure that the policies and
procedures include adequate internal
control and monitoring.

9. Information needed for each            Not responded to by                Open
quarter closed should include all         Management.
necessary updated information for fair
statement of the financial position of
the FLRA.

10. The process of updating the           Not responded to by                Closed 1/29/08
ability of accrued leave should be        Management.
conducted quarterly in time for the
fiscal quarter accounting closed. This
updating should ensure fair statement
of the accrual by obtaining accurate


                            39th Semi Annual Report
                                  Page 29 of 37
and reliable data needed to determine
the accrual.

11. The process of updating the          The IG received Mgt. response to   Open
liabilities of accrued FECA and Future   IG findings and recommendations
Workers Compensation should be           by e-mail Jan.2, 08.
conducted quarterly in time for the
fiscal quarter accounting closed. This
updating should ensure fair statement
of the accrual by obtaining accurate
and reliable data needed to determine
the accrual.

12. Formal collection procedures         The IG received Mgt. response to   Open (12)(a)(b)(c)(d)(e)
should be establish that included:       IG findings and recommendations
(a) The formal periodic review of the    by e-mail Jan.2, 08
account receivable aged trial balance;
(b) The implementation of procedures
for contacting delinquent accounts for
payment, such as sending letters;
(c) The formal periodic review of the
account receivable aged trial balance;
(d) A quarterly assessment
concerning the collectibles of the
receivables, and;
(e) The determination of allowance for
doubtful accounts.



13. The FLRA should ensure that the      The IG received Mgt. response to   Open
PAR is delivered by the regulatory       IG findings and recommendations
due date.                                by e-mail Jan.2, 08


14. Lease agreements should be           The IG received Mgt. response to
reviewed for existing occupied and       IG findings and recommendations    Closed 1/29/08
used spaces and ensure each lease is     by e-mail Jan.2, 08
accurate and complete. Any
omissions should be addressed and
followed u with appropriate written
requests to the leasing officer.

15. In conjunction with the back up of   The IG received Mgt. response to
key accounting positions, procedures     IG findings and recommendations    Closed 1/29/08
are established for a review of manual   by e-mail Jan.2, 08.
adjusting journal entries prior to
entering to the system.


16. FLRA should address whether          The IG received Mgt. response to
alternative summary level information    IG findings and recommendations    Open
can be posted to the general ledger      by e-mail Jan.2, 08.
for the payroll interface. With
summary information by department,
the general ledger would be greatly
improved as a monitoring and
analysis tool for management.




                          39th Semi Annual Report
                                Page 30 of 37
2006 Financial    1. The FLRA Chairman or designated       The IG received Mgt. response to   Open (1(a)(b)(c)(d)(e)
Statement Audit   management official oversee audit        IG findings and recommendations
April 14, 06      follow-up including resolution and       by e-mail Jan.2, 08.

                  corrective actions ensuring that
                  (a) high priority has been assigned to
                  the resolution of audit and to
                  corrective action;
                  (b) systems of audit follow-up,
                  resolution and corrective action are
                  documented and in place.
                  (c) timely responses are made to all
                  audit reports.
                  (d) disagreements are resolved, and;
                  (e) corrective actions are actually
                  taken.


                  2. Mgt. address, the adequacy of         The IG received Mgt. response to   Closed 1/29/08
                  internal control in Federal programs     IG findings and recommendations
                  and operation in compliance to OMB       by e-mail Jan.2, 08.
                  Circular A-123.


                  3. Mgt and its employees establish       The IG received Mgt. response to   Open
                  and maintain an environment              IG findings and recommendations
                  throughout the organization that sets    by e-mail Jan.2, 08.
                  a positive and supportive attitude
                  toward internal controls and
                  conscientious management.


                  4. Management ensure that FISMA is       The IG received Mgt. response to   Open
                  complied with and that each year an      IG findings and recommendations
                  independent evaluation of information    by e-mail Jan.2, 08.
                  security program and practices of
                  FLRA is done to determine the
                  effectiveness of such programs and
                  practices with the deficiencies report
                  with the deficiencies reported under
                  those evaluations being properly
                  addressed and resolved.


                  5. Mgt. ensure that OMB Circular No.     The IG received Mgt. response to   Open
                  A-136, “Financial Reporting              IG findings and recommendations
                  Requirements is adhered to by the        by e-mail Jan.2, 08.
                  agency in all respects.

                                                                                              Open
                  6. Mgt. has failed to respond to         The IG received Mgt. response to
                  weaknesses in control environments       IG findings and recommendations
                  of previous financial statement audits   by e-mail Jan.2, 08.
                  and extensive amount of FLRA
                  Inspector General findings and
                  recommendations stated to
                  independent and objective oversight
                  activities. Mgt. needs to evaluate and
                  audit, investigation and oversight




                                            39th Semi Annual Report
                                                  Page 31 of 37
                  report findings and recommendations
                  and provide responses and resolution
                  to all issues addressed in these
                  reports.

                  7. Mgt. must ensure timely recording      The IG received Mgt. response to   Open
                  of obligations onto the general ledger.   IG findings and recommendations
                                                            by e-mail Jan.2, 08.



                  8. Mgt. should establish independent      The IG received Mgt. response to   Closed 1/29/08
                  monitoring of Accounts receivable to      IG findings and recommendations
                  ensure proper collection and/or           by e-mail Jan.2, 08.
                  resolutions.

Internal Review
of FLRA
Administrative
Policy February   1. FLRA procedures are inadequate         The IG received Mgt. response to   Closed 1/29/08
27, 2007          for the oversight of financial            IG findings and recommendations
                  accounting and reporting. Mgt. needs      by e-mail Jan.2, 08.
                  to establish appropriate control
                  activities, communication and
                  monitoring of accounting and financial
                  reporting operations in effect for the
                  FLRA.


                  2. As stated in AICPA’s AU Section        The IG received Mgt. response to   Closed 1/29/08
                  333 “Management refused to furnish        IG findings and recommendations
                  written representation which              by e-mail Jan.2, 08
                  constitutes a limitation and caused the
                  auditor to disclaim an opinion.
                  Codification of statements on Auditing
                  Standards indicates that the Mgt.
                  letter is necessary to confirm
                  representations given to the auditor.
                  Mgt. needs to comply with this
                  requirement.



                  3. Mgt. must issue PAR reports to         The IG received Mgt. response to   Open
                  Financial Statement auditors and          IG findings and recommendations
                  must be completed in order to render      by e-mail Jan.2, 08.
                  an audit opinion.


                  4. Procedures to review and analyze       The IG received Mgt. response to   Closed 1/29/08
                  unliquidated obligations for the          IG findings and recommendations
                  determination of proper liability and     by e-mail Jan.2, 08.
                  accrual and proper obligated funds
                  balances.



                  5. Mgt. has failed to follow-up and       The IG received Mgt. response to   Open
                  correct previously identified             IG findings and recommendations
                  weaknesses in internal controls and       by e-mail Jan.2, 08.
                  needs to be establish adequate
                  internal controls over general ledger


                                             39th Semi Annual Report
                                                   Page 32 of 37
reconciliations and supporting
documentation for general ledger
balances.

1(a) The FLRA Executive Director          The IG received Mgt. response to   Open
should immediately create a new           IG findings and recommendations
instruction for creating FLRA             by e-mail Jan.2, 08.
administrative instructions.
(b) The FLRA Executive Director
should immediately review the                                                Open
cancelled policies and have
necessary replacement policies
issued as quickly as possible.
(c) The FLRA Executive Director                                              Open
should address the review, update,
and/or revision of all FLRA
administrative instructions issued over
5-7 years ago, especially those
related to Human Resources, Security
Contracting, Procurement and
Financial Statement/Budgeting and
Accounting.


2. The FLRA Executive Director                                               Open
should immediately review all current     The IG received Mgt. response to
instructions without Executive            IG findings and recommendations
Directors signature and sign or attach    by e-mail Jan.2, 08.
a signature to all instructions
implemented during the last 7 years
that have not been removed.


3. The FLRA Executive Director            The IG received Mgt. response to   Open
should review the 6 listed instructions   IG findings and recommendations
that are on the FLRA website and          by e-mail Jan.2, 08.
cancellations list. If they are
acceptable as current policy, remove
them from cancellations list. If they
should be cancelled, remove them
from the FLRA instruction website.




                           39th Semi Annual Report
                                 Page 33 of 37
                                                   TABLE I

             INSPECTOR GENERAL AUDIT REPORTS WITH QUESTIONED COSTS
                                       NUMBER OF REPORTS    DOLLAR VALUE
 A. For which no management decision has been
 made by the commencement of the reporting                 No Questioned Costs
 period.
 B. Which were issued during the reporting               2007 Financial Statement
 period?                                                          Audit
                                                           No Questioned Costs

 C. For which a management decision was made
                                                                  None
 during the reporting period.
           (i) Dollar value of disallowed costs.

          (ii) Dollar value of costs not disallowed.       The Chairman must
                                                           approve all budget
                                                             expenditures.

 D. For which no management decision has been
                                                           No Questioned Costs
 made by the end of the reporting period.

                                                  TABLE II

INSPECTOR GENERAL AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE
PUT TO BETTER USE
                                  NUMBER OF REPORTS    DOLLAR VALUE
A. For which no management decision has been           Inspector General
made by the commencement of the reporting              recommendation to conduct
period.                                                an independent contracted
                                                       technical information
                                                                                       $85,000.00
                                                       security technology audit
                                                       for FISMA and significant
                                                       IRM deficiencies. Not
                                                       approved so far
                                                       2007 Financial Statement
B. Which were completed during the reporting
                                                                Audit
period?

C. For which a management decision was made              No response provided.
during the reporting period.
          (i) Dollar value of recommendations that
                                                                 None
          were agreed to by management.
          (ii) Dollar value of costs that were not     No response to IG request
          agreed to by management.                     for funds for 2007 Security   $85,000. 00
                                                       Technology Audit provided.

D. For which no management decision has been              2005-2006 Financial
made by the end of the reporting period.                     Statement Audit
                                                       Findings/Recommendations
                                                             responded to by
                                                              Chairman/CFO



                                        39th Semi Annual Report
                                              Page 34 of 37
                      FEDERAL LABOR RELATIONS AUTHORITY
                            Office of the Inspector General
                            Oversight Activities Summary
                           October 1, 2007 –March 31, 2008

SUBJECT                                                                    STATUS

Administrative Investigations                                                   2
                                                                             Closed
2008-I- 01

2007-I -02                                                                  In process




Inspector General Hotline Calls: During this reporting period IG handled
3 Hotline Call
                                                                             Closed
2008-H-01
2008-H-02
2008-H-03


                     FEDERAL LABOR RELATIONS AUTHORITY
                           Office of the Inspector General
                        CORRECTIVE ACTION SUMMARY
                         October 1, 2007 – March 31, 2008
New Corrective Actions                                                          7

Open Corrective Actions Carried Over                                           152

Total Actions Closed This Period                                               46

Total to be Carried Over                                                       136




                                39th Semi Annual Report
                                      Page 35 of 37
Definitions

Actions

Completion by management of either all actions necessary to implement report
recommendations or a management decision that determines no action is necessary.

Funds Be Put To Better Use

The amount of savings estimated by the Inspector General that could be obtained by
implementing report recommendations relating to more efficiency and effectiveness of
programs and operations.

Management Decision

A final decision made by management in response to audit report recommendations
that may include actions concluded to be necessary or a determination that no action is
necessary.

Management Letter

This document brings to the attention of management any of a broad range of issues
and subjects which should be addressed by management, but do not require formal
audit or investigation. Management letters are generally unplanned and are issued to
report on situations found in conjunction with an on-going or completed audit or
investigation. These letters may also be used to expand on previously issued audit
report recommendations.

Questioned Costs

Expenditures questioned by the Inspector General are usually due to the following:

Unsupported costs, which involve inadequate documentation; Disallowed costs, which
involve an alleged violation concurred with by Managements Decision of a law,
regulation, grant, contract, or another agreement; or unnecessary costs which involve
unnecessary or wasteful spending.




                                39th Semi Annual Report
                                      Page 36 of 37
REPORT FRAUD, WASTE, ABUSE, AND MISMANAGEMENT

                          TO

    THE FEDERAL LABOR RELATIONS AUTHORITY

       OFFICE OF THE INSPECTOR GENERAL

                     HOTLINE

          1-800-331-3572 (24 hr. service)

                   202-218-7744

                     or write to

                        FLRA

            Office of Inspector General

                1400 K Street, NW

                     Suite 250

             Washington, D.C. 20424




                 39th Semi Annual Report
                       Page 37 of 37
